               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00687-155




  Combined Assessment Program 

              Review of the 

 W.G. (Bill) Hefner VA Medical Center 

      Salisbury, North Carolina 





May 20, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       W.G. (Bill) Hefner VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MSIT           Multidisciplinary Safety Inspection Team
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 OPPE           Ongoing Professional Practice Evaluation
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14

  Construction Safety.................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. Strategic Analytics for Improvement and Learning ............................................                                19

  C. VISN Director Comments ..................................................................................                    22

  D. Facility Director Comments ...............................................................................                   23

  E. OIG Contact and Staff Acknowledgments .........................................................                              29

  F. Report Distribution .............................................................................................            30

  G. Endnotes ...........................................................................................................         31





VA OIG Office of Healthcare Inspections
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 24, 2014.

Review Results: The review covered eight activities.                              We    made      no
recommendations in the following two activities:

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were implementing a robotic surgery system
and creating a Long-Term Care Center of Excellence.

Recommendations: We made recommendations in the following six activities:
Quality Management: Ensure the Surgical Work Group meets monthly. Review all
surgical deaths. Review the quality of entries in the electronic health record at least
quarterly. Ensure the Blood Usage Review Committee members from Surgery,
Medicine, and Anesthesia Services consistently attend meetings. Implement the plan to
track Ongoing Professional Practice Evaluations and present them to the Professional
Standards Board within the timeframe required by local policy.

Environment of Care: Ensure all required staff receive training on identification and
correction of environmental hazards, proper use of the Mental Health Environment of
Care Checklist, and VA’s National Center for Patient Safety study of suicide on
psychiatric units. Require that locked mental health unit panic alarm testing includes VA
Police response time and that the locked mental health units’ seclusion room floors
have a cushioned surface.

Nurse Staffing: Monitor the staffing methodology implemented in October 2013.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Provide and document pressure ulcer education for patients at risk for and with
pressure ulcers and/or their caregivers.

Community Living Center Resident Independence and Dignity: Ensure all care
planned/ordered assistive eating devices are provided to residents for use during meals.

Construction Safety: Ensure construction site inspection documentation includes the
time of the inspection and the time when corrective actions occurred. Conduct infection
surveillance activities related to construction projects, and document this in Infection
Control Committee minutes.


VA OIG Office of Healthcare Inspections                                                             i
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 22–28, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following eight activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

   	 Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.




VA OIG Office of Healthcare Inspections                                                            1
                                     CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
March 27, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.      We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, North Carolina,
Report No. 08-03078-44, December 9, 2009). We made a repeat recommendation
related to MH EOC training.

During this review, we presented crime awareness briefings for 93 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
416 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                            Reported Accomplishments

Robotic Surgery System
In November 2012, the facility became 1 of 3 VISN 6 facilities approved to perform
robotic surgery. The robotic surgery system provides surgeons the ability to perform
complex procedures through small surgical incisions and supports collaboration
between surgeons. The goal of the robotic surgery system is to train surgeons to
perform procedures safely and effectively and to reduce complications and improve
surgical outcomes. Since the March 2013 initiation, the facility has increased the
number of robotic radical prostatectomies,a while reducing hospital length of stay and
post-operative complications by 50 percent and patients’ estimated blood loss by
80 percent.

Hospice and CLC Renovations
In November 2010, the facility initiated a 3-phase minor capital improvement project to
create a Long-Term Care Center of Excellence. Phase 1 has been completed and
involved renovating the hospice unit to include 12 beds with private rooms and
bathrooms; a 6 room/12 bed temporary lodging option for veterans; and a Main Street
concept in the atrium of the CLC with various shops, activities, a 24-hour theatre, a town
hall, and a barbershop. These improvements create a sense of comfort and familiarity
and a community environment within the CLC.

a
 A radical prostatectomy is an operation to remove the prostate gland and some of the tissue around it. It is done to
remove prostate cancer.


VA OIG Office of Healthcare Inspections                                                                             2
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                      3
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM               Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group only met 5 times
       requirements:                                        over the past 7 months.
        An interdisciplinary committee with
                                                          Several surgical deaths occurred from July
          appropriate leadership and clinical
                                                          through December 2013:
          membership met monthly to review surgical
                                                           There was no evidence that some of the
          processes and outcomes.
                                                             deaths were reviewed.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in    Twelve months of EHR Committee meeting
       the EHR met selected requirements:                 minutes reviewed:
        A committee was responsible to review             There was no evidence that the quality of
          EHR quality.                                      entries in the EHR was reviewed.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                      4
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM              Areas Reviewed (continued)                                    Findings
 X     The process to review blood/transfusions           Five sets of Blood Usage Review Committee
       usage met selected requirements:                   meeting minutes reviewed:
        A committee with appropriate clinical             Clinical representatives from Surgery and
          membership met at least quarterly to review        Anesthesia Services only attended three
          blood/transfusions usage.                          meetings, and a clinical representative from
        Additional data elements were routinely             Medicine Service only attended one meeting.
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility met any additional elements           In response to a hotline allegation that the
       required by VHA or local policy.                   facility was expediting delinquent OPPEs prior to
                                                          our visit, we reviewed the OPPE process. Local
                                                          policy requires OPPEs to be completed and
                                                          reported to the Professional Standards Board
                                                          every 6 months. We found that the tracking
                                                          process was flawed and that OPPEs were not
                                                          completed or reported timely. Between
                                                          February 4 and March 26, 2014, the facility
                                                          eliminated the backlog of 131 OPPEs and
                                                          provided a plan to ensure better tracking and
                                                          timely reporting.

Recommendations

1.   We recommended that the Surgical Work Group meet monthly.

2. We recommended that processes be strengthened to ensure that all surgical deaths are
reviewed.

3. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed at least quarterly.

4. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee members from Surgery, Medicine, and Anesthesia Services consistently attend
meetings.

5. We recommended that the facility implement their plan to track OPPEs and present them to
the Professional Standards Board within the timeframe required by local policy and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      5
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected medical/surgical unit 2-3, intensive care unit 2-3, CLC unit 42-2C, the emergency
department, the primary care clinic Green Team, the podiatry clinic, x-ray and fluoroscopy, and
acute MH units 4-3A and 4-3B. Additionally, we reviewed relevant documents, conversed with
key employees and managers, and reviewed 29 employee training records (10 radiology
employees, 9 acute MH unit employees, 5 MSIT members, and 5 occasional acute MH unit
employees). The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                   Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                     
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,             
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                      6
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM      Areas Reviewed for Radiology (continued)                               Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for                    
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 X     MH unit staff, MSIT members, and occasional          One of the MSIT members and all five of the
       unit workers received training on how to              occasional locked MH unit workers had not
       identify and correct environmental hazards,           completed training on how to identify and
       content and proper use of the MH EOC                  correct environmental hazards, proper use of
       Checklist, and VA’s National Center for               the MH EOC Checklist, and VA’s National
       Patient Safety study of suicide on psychiatric        Center for Patient Safety study of suicide on
       units.                                                psychiatric units. This was a repeat finding
                                                             from the previous CAP review. 




VA OIG Office of Healthcare Inspections                                                                      7
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM      Areas Reviewed for Acute MH (continued)                             Findings
 X     The locked MH units were in compliance with         Although panic alarm testing was conducted,
       MH EOC Checklist safety requirements or an           VA Police response time was not
       abatement plan was in place.                         documented for the past 2 months.
                                                           Seclusion room floors did not have a
                                                            cushioned surface.
       The facility complied with any additional             
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

6. We recommended that processes be strengthened to ensure that all MSIT members and
occasional locked MH unit workers receive training on how to identify and correct environmental
hazards, proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety
study of suicide on psychiatric units and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that locked MH unit panic
alarm testing documentation includes VA Police response time.

8. We recommended that the locked MH units’ seclusion room floors have a cushioned
surface.




VA OIG Office of Healthcare Inspections                                                                      8
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                         Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                      9
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 22 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                         Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     10
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 24 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 2-3, CLC unit 42-C, and MH unit
4-3A—for 50 randomly selected days between October 1, 2012, and September 30, 2013. The
table below shows the areas reviewed for this topic. The area marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                       Findings
 X     The facility either implemented or reassessed       Initial implementation was not completed until
       a nurse staffing methodology within the              October 25, 2013.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

9. We recommended that nursing managers monitor the staffing methodology implemented in
October 2013.




VA OIG Office of Healthcare Inspections                                                                     11
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 21 EHRs of patients with pressure ulcers (8 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
3 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                  In 6 of the 21 EHRs, documentation of
       documenting location, stage, risk scale score,       location, stage, risk scale score, and/or date
       and date acquired.                                   acquired varied.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                     12
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM             Areas Reviewed (continued)                                      Findings
 X     The facility defined requirements for patient      Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and        education requirements reviewed:
       education on pressure ulcer prevention and          For 5 of the applicable 14 patients at risk
       development was provided to those at risk for        for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their                contain evidence that education was
       caregivers.                                          provided.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     13
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 20 EHRs of residents (10 residents receiving restorative nursing services and
10 residents not receiving restorative nursing services but candidates for services). We also
observed 8 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 X     Care planned/ordered assistive eating devices       Two of 15 assistive eating devices care
       were provided to residents at meal times.            planned/ordered were not provided to
                                                            residents at meal time.




VA OIG Office of Healthcare Inspections                                                                     14
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


           Areas Reviewed for Assistive Eating
         Devices and Dining Service (continued)
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

12. We recommended that processes be strengthened to ensure that all care planned/ordered
assistive eating devices are provided to residents for use during meals.




VA OIG Office of Healthcare Inspections                                                                     15
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.8

We inspected the B2 emergency department holding room and bathroom renovation.
Additionally, we reviewed relevant documents and 10 employee training records, and we
conversed with key employees and managers. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                          Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
 NA    There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation for 2 quarters
       required multidisciplinary team members at         reviewed:
       the specified frequency and included all            We did not find documented evidence of the
       required elements.                                    time of the inspection and the time when
                                                             corrective actions occurred.
 X     Infection Control Committee minutes                Infection Control Committee minutes for past
       documented infection surveillance activities       2 quarters reviewed:
       associated with the project(s) and any              There was inconsistent documentation of
       interventions.                                        infection surveillance activities related to the
                                                             project.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.



VA OIG Office of Healthcare Inspections                                                                         16
                                          CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM             Areas Reviewed (continued)                                      Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

13. We recommended that processes be strengthened to ensure that inspection documentation
includes the time of the inspection and the time when corrective actions occurred.
14. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are consistently conducted and documented in
Infection Control Committee minutes.




VA OIG Office of Healthcare Inspections                                                                     17
                                       CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                                Appendix A


    Facility Profile (Salisbury/659) FY 2014 through March 2014b
Type of Organization                                                                  Tertiary
Complexity Level                                                                      1c-High complexity
Affiliated/Non-Affiliated                                                             Affiliated
Total Medical Care Budget in Millions                                                 $372.9
Number of:
    Unique Patients                                                                  68,678
    Outpatient Visits                                                                405,584
    Unique Employeesc                                                                2,002
Type and Number of Operating Beds (February 2014):
    Hospital                                                                         107
    CLC                                                                              270
    MH                                                                               35
Average Daily Census:
    Hospital                                                                         75
    CLC                                                                              105
    MH                                                                               26
Number of Community Based Outpatient Clinics                                          3
Location(s)/Station Number(s)                                                         Winston-Salem/659BY
                                                                                      Charlotte/659GA
                                                                                      Hickory/659GB
VISN Number                                                                           6




b
    All data is for FY 2014 through March 2014 except where noted. 

c
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    18
                                                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                                                         Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)d




d
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                           19
                                                      CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                 20
                                                                                                 CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            21
                                 CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                          Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       April 29, 2014

          From:        Director, VA Mid-Atlantic Health Care Network (10N6)

       Subject: 	      CAP Review of the W.G. (Bill) Hefner VA Medical Center,
                       Salisbury, NC

             To:       Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. The attached subject report is forwarded for your review and further
          action. I reviewed the response of the W. G. (Bill) Hefner VA Medical
          Center (VAMC), Salisbury, NC, and concur with the facility’s
          recommendations.

       2. If you have further questions, please contact Lisa Shear, VISN 6 QMO,
          at (919) 956-5541.


                    (original signed by:)
           DANIEL F. HOFFMANN, FACHE




VA OIG Office of Healthcare Inspections                                                            22
                                 CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                          Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       April 28, 2014

          From:        Director, W.G. (Bill) Hefner VA Medical Center (659/00)

       Subject:        CAP Review of the W.G. (Bill) Hefner VA Medical Center,
                       Salisbury, NC

             To:       Director, VA Mid-Atlantic Health Care Network (10N6)

       1. I have reviewed the draft report of the Office of Inspector General and I
          concur with the recommendations.
       2. I have included my response in the attached Director’s Comments.
       3. Please contact me if you have any questions or comments.


               (original signed by:)
           KAYE GREEN, FACHE




VA OIG Office of Healthcare Inspections                                                            23
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Surgical Work Group meet monthly.

Concur

Target date for completion: Completed

Facility response: The surgical work group has been meeting monthly as required since
September 2013. The minutes will be reported monthly to the CEB until closure by the
OIG and then revert to a quarterly frequency.

Recommendation 2. We recommended that processes be strengthened to ensure that
all surgical deaths are reviewed.

Concur

Target date for completion: Completed April 22, 2014

Facility response: The 5 cases not included in the mortality and morbidity conferences
were reviewed and included in the April 22, 2014 Surgical Work Group minutes. The
VASQIP nurse will monitor monthly surgical work group minutes to ensure that there is
documentation that all surgical deaths were assessed in a mortality and morbidity
conference. This monitor will be reported to CEB monthly for oversight.

Recommendation 3. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed at least quarterly.

Concur

Target date for completion: Completed

Facility response: Medical Records Committee has developed a reporting matrix for
review of the quality of entries in the EHR. This matrix includes all services with staff
who document in the EHR. Reviews are scheduled for each quarter to ensure data is
collected and analyzed at least quarterly. Compliance will be monitored monthly and
reported to CEB until closure by OIG, and then it will revert to a quarterly reporting
frequency.




VA OIG Office of Healthcare Inspections                                                           24
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Recommendation 4. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee members from Surgery, Medicine, and Anesthesia
Services consistently attend meetings.

Concur

Target date for completion: Completed April 9, 2014

Facility response: Members were notified of the attendance requirement.
Representatives from all three departments attended the Blood Utilization Review
meeting on April 9, 2014. Committee attendance will be monitored monthly until OIG
closure to ensure anesthesia, surgery and medicine representatives are present at the
meeting. Monthly reports will be provided to CEB for ongoing oversight.

Recommendation 5. We recommended that the facility implement their plan to track
OPPEs and present them to the Professional Standards Board within the timeframe
required by local policy and that compliance be monitored.

Concur

Target date for completion: Completed March 26, 2014

Facility response: A process using electronic software, Privplus, has been implemented
to track OPPEs and send notices prior to their due date to ensure OPPEs are
completed timely. There were no overdue OPPEs as of March 26, 2014. Compliance
will be monitored and reported monthly to the CEB for ongoing oversight.

Recommendation 6. We recommended that processes be strengthened to ensure that
all MSIT members and occasional locked MH unit workers receive training on how to
identify and correct environmental hazards, proper use of the MH EOC Checklist, and
VA’s National Center for Patient Safety study of suicide on psychiatric units and that
compliance be monitored.

Concur

Target date for completion: June 15, 2014

Facility response: All MSIT members and occasional locked MH unit employees will
complete mandatory training on how to identify and correct environmental hazards,
proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety study
of suicide on psychiatric units. Training must be completed by 6/15/14. The education
department will monitor compliance with training requirements. Compliance will be
reported to CEB and ELB for ongoing oversight.




VA OIG Office of Healthcare Inspections                                                           25
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Recommendation 7. We recommended that processes be strengthened to ensure that
locked MH unit panic alarm testing documentation includes VA Police response time.

Concur

Target date for completion: May 30, 2014

Facility response: The police dispatchers will begin tracking response times to panic
alarms in the locked mental health units beginning May 1, 2014. This will be reported
monthly to the Environment of Care Committee beginning June 2014. In addition, two
response drills are conducted annually and the response times are tracked. These will
be reported to the Environment of Care Committee.

Recommendation 8. We recommended that the locked MH units’ seclusion rooms
have a cushioned surface.

Concur

Target date for completion: June 30, 2014

Facility response: The locked mental health units are scheduled to move to a new
building on June 30, 2014. The seclusion rooms in the new building have a cushioned
surface. In the interim, padded mats will be placed in the current seclusion rooms and
patients continuously observed.

Recommendation 9. We recommended that nursing managers monitor the staffing
methodology implemented in October 2013.

Concur

Target date for completion: Completed and Ongoing

Facility response: Staffing methodology was fully implemented in October 2013.
Staffing methodology will be monitored and reported to the Nurse Executive Council
monthly until OIG closure and then will continue to be monitored as per VHA
Directive 2010-034.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: May 30, 2014

Facility response: The Acute Care Wound Care Specialist will train pressure ulcer
prevention champions on each shift by April 30, 2014. These Pressure Ulcer



VA OIG Office of Healthcare Inspections                                                           26
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Champions will train front line staff by May 30, 2014, to ensure accurate documentation
of location, stage, risk scale score, and date pressure ulcer acquired. The Acute Care
Wound Care Specialist will monitor wound care documentation to ensure 90 percent
compliance with requirements and will report monthly to Nurse Executive Committee for
oversight.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: Completed April 16, 2014

Facility response: Acute Care nursing staff have been reeducated that pressure ulcer
prevention education must be given to patients and/or their caregivers. Staff was also
educated that the Admission Assessment template in CPRS was revised so to ensure a
consistent method for documenting that this education occurred. The revised template
was implemented in CPRS on April 16, 2014. The acute care wound care specialist will
monitor wound care documentation to ensure it meets 90 percent compliance with
patient education documentation requirements. This will be reported monthly to Nurse
Executive Committee for oversight.

Recommendation 12. We recommended that processes be strengthened to ensure
that all care planned/ordered assistive eating devices are provided to residents for use
during meals.

Concur

Target date for completion: May 2, 2014

Facility response: Each tray has a ticket on it with the Resident's Name, Room, Diet,
and menu. This ticket has been revised so the need for any adaptive equipment is
clearly visible. Food and Nutrition Staff were educated at the April monthly meeting of
this change and the need to double check each tray to ensure the proper adaptive
equipment is present. The Dietary supervisor will complete at least 30 observations per
month to ensure all patients receive ordered adaptive equipment. Compliance will be
reported monthly to CEB until closure by the OIG with a target of 90 percent.

Recommendation 13. We recommended that processes be strengthened to ensure
that inspection documentation includes the time of the inspection and the time when
corrective actions occurred.
Concur

Target date for completion: Complete April 1, 2014




VA OIG Office of Healthcare Inspections                                                           27
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Facility response: Construction Reports format has been revised to include the time of
inspection and date when the corrective actions occurred. Reports will be monitored
monthly by the Chief of Engineering. Compliance will be reported monthly, until OIG
closure, to EOC with a target of 90 percent.

Recommendation 14. We recommended that processes be strengthened to ensure
that infection surveillance activities related to construction projects are consistently
conducted and documented in Infection Control Committee minutes.

Concur

Target date for completion: April 29, 2014

Facility response: A process has been developed to ensure that infection surveillance
activities related to construction projects to ensure that they are consistently conducted.
These surveillance activities are scheduled in advance and included on a calendar so
all pertinent parties may participate. The Infection Control Committee has a standing
agenda item for documentation of surveillance activities of construction projects. The
Infection Control Committee meeting minutes will be monitored monthly to ensure
documented surveillance of construction projects. Compliance will be reported monthly
to EOC for ongoing oversight.




VA OIG Office of Healthcare Inspections                                                           28
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Toni Woodard, BS, Team Leader
Contributors            Victoria Coates, LICSW, MBA
                        Sheyla Desir, RN, MSN
                        Lesa Gann, RN, LCSW
                        Joanne Wasko, LCSW
                        Bobby Kirby, Special Agent, Office of Investigations
                        Scott Bailey, Resident Agent In Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           29
                                CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Health Care Network (10N6)
Director, W.G. (Bill) Hefner VA Medical Center (659/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr, Kay R. Hagan
U.S. House of Representatives: Howard Coble, Renee Ellmers, Virginia Foxx,
 Richard Hudson, Patrick T. McHenry, Robert Pittenger


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           30
                                        CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                                 Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission. 
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.




VA OIG Office of Healthcare Inspections                                                                             31
                                        CAP Review of the W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.
8
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration regulations.




VA OIG Office of Healthcare Inspections                                                                    32
